HHS/OIG - Audit, Medicare Prospective Payment System Transfers Reported as Left Against Medical Advice Hospital Discharges, (A-06-99-00045 )
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Prospective Payment System Transfers Reported as Left Against
Medical Advice Hospital Discharges," (A-06-99-00045)
March 21, 2002
Complete
Text of Report is available in PDF format (748 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Medicare paid 1,610 hospitals
an additional $6.8 million because the hospitals reported patients as having
left against medical advice (called LAMA discharges), when, in actuality, the
patients were transferred or admitted to another hospital on the same day. As
a result, these claims were paid at an amount higher than would have been paid
had the LAMA discharges been treated as transfers. This problem occurred because
LAMA discharges are not included in the computerized system edits designed to
detect same day discharge and readmission to another hospital. In addition to
the recovery of overpayments, we recommended that the Centers for Medicare &
Medicaid Services (CMS):  (1) review the instructions for incorrect hospital
coding of patient discharges in order to determine whether it should be revised
to address transfers reported as LAMA discharges; and (2) develop adequate internal
controls and monitoring safeguards at the fiscal intermediaries and peer review
organizations to detect and address transfers reported as LAMA discharges.